AUDIT OF THE FEDERAL BUREAU OF PRISONS MEDICAL
  SERVICES CONTRACT WITH THE UNIVERSITY OF
             TEXAS MEDICAL BRANCH
           CONTRACT NO. DJB50211015




           U.S. Department of Justice
         Office of the Inspector General
                  Audit Division


           Audit Report GR-60-12-001
                 December 2011
                   AUDIT OF THE FEDERAL BUREAU OF PRISONS
                    MEDICAL SERVICES CONTRACT WITH
                 THE UNVERSITY OF TEXAS MEDICAL BRANCH
                       CONTRACT NO. DJB50211015

                                EXECUTIVE SUMMARY

          The Office of the Inspector General, Audit Division, has
    completed an audit of the Federal Bureau of Prisons (BOP) Contract
    No. DJB50211015, awarded to the University of Texas Medical Branch
    (UTMB). The purpose of the contract is to operate and manage health
    services units (HSU) at the Federal Correctional Complex in Beaumont,
    Texas (FCC Beaumont). An indefinite-delivery requirement contract
    was awarded to UTMB on July 18, 2007, and as shown below, had an
    estimated award amount of over $98 million for the base year and four
    option years. Actual costs for the base year and the first three option
    years were $66,707,293. At the time of our audit, option year 4 had
    not been exercised.

                                  EXHIBIT 1
                          CONTRACT PERIOD AND COSTS 1

   Contract
    Period              From            To         Estimated Cost  Actual Cost
Base Year              07/18/07      07/17/08       $ 17,746,483  $ 17,269,429
Option Year 1          07/18/08      07/17/09       $ 18,625,035  $ 17,271,795
Option Year 2          07/18/09      07/17/10       $ 19,785,555  $ 18,809,997
Option Year 3          07/18/10      07/17/11       $ 20,576,145  $ 13,356,072
Option Year 4          07/18/11      07/17/12       $ 21,408,345  $           0
Total                                               $ 98,141,563 $ 66,707,293
Source: The medical services contract and the list of contract-related expenditures

           The objectives of our audit were to determine if: (1) the
    solicitation process for the contract was in accordance with the BOP’s
    policies and procedures, (2) the contractor provided the supplies and
    services at the cost and time agreed to in the contract, (3) payments
    were only made for supplies and services that were allowable and
    authorized, (4) the BOP and contractor submitted required reports,
    (5) the contractor’s billing process was adequate and proper
    documents were provided to the BOP in support of its requests for
    payment, and (6) the BOP effectively monitored the contract.


           1
               Differences between the aggregated costs and totals are due to rounding.
Additionally, a sample of source documents was reviewed at FCC
Beaumont to determine if billings were adequately supported.

       In conducting the audit, we obtained an understanding of the
contract requirements along with FCC Beaumont’s controls and
processes. We reviewed documents and conducted interviews at the
FCC Beaumont facilities and with UTMB Officials to determine if the
contractor provided services in accordance with the contract and if
billed costs were accurate. Our audit disclosed that UTMB generally
met the terms and conditions of the contract and followed applicable
laws, regulations, and guidelines with the following exceptions.

•   According to FAR Subpart 32.905 Payment Documentation and
    Process, payments will be based on receipt of a proper invoice. Of
    the 24 vouchers tested, 16 were incomplete or contained incorrect
    information on the invoices, and 3 were missing invoices altogether.

•   According to FAR 22.1002-2 Wage Determinations Based on
    Prevailing Rates, contractors performing on service contracts in
    excess of $2,500 shall pay their employees at least the wages
    found by the Department of Labor to prevail in the locality. We
    found that FCC Beaumont did not ensure that UTMB was paying its
    employees the minimum wage rate as defined by the Department
    of Labor. Specifically, we determined that in the third option year,
    4 of 110 UTMB employees were paid less than the minimum wage
    rate.

       Our audit also disclosed that FCC Beaumont did not verify that
all portions of UTMB’s invoices were calculated correctly resulting in an
overpayment of $2,394 to UTMB for off-site medical services at
UTMB’s prison hospital. According to the BOP’s Program Statement
P6010.02, Health Services Administration, the Health Services
Administrator (HSA) is responsible for verifying the accuracy of the
invoice, including determining if the billed services were authorized
and appropriate and have been completed. Additionally, according to
the BOP’s Program Statement P4100.04, Bureau of Prisons Acquisition
Policy, requests for purchases and/or other prescribed forms shall be
signed or initialed by a cost center manager; and according to the
contract, any services to be furnished under the contract shall be
ordered by issuance of a task order. During transaction testing, we
found one voucher was missing a task order, and five payment
vouchers contained task orders that were either not signed by the Cost


                                    ii
Center Manager or not signed by both the Cost Center Manager and
the Contracting Officer.

      Contract modification number three allowed for an equitable
adjustment to account for the inmate population failing below a
specified contract floor. FCC Beaumont miscalculated the August 2008
equitable adjustment payment to UTMB resulting in an overpayment of
$1,883.

      Finally, we determined that FCC Beaumont was not always in
compliance with the Prompt Payment Act. According to the BOP’s
Program Statement P2011.10, Prompt Payment Act, federal agencies
are required to make payments on time, and to pay interest penalties
when late. We determined that the FCC Beaumont generally paid the
contractor on time, with the exception of one transaction paid four
days late, resulting in $955 in penalty interest.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope,
and methodology appear in Appendix I.




                                 iii
                          TABLE OF CONTENTS

INTRODUCTION ........................................................................ 1
     Background.......................................................................... 2
          The Bureau of Prisons and FCC Beaumont .......................... 2
          The University of Texas Medical Branch ............................. 3
     Our Audit Approach............................................................... 3
FINDINGS AND RECOMMENDATIONS ....................................... 5
     Contract Solicitation and Award of Contract ............................. 5
     Compliance with Contract Requirements .................................. 5
     Payment Testing – FCC Beaumont .......................................... 6
          Improper or Missing Invoices............................................ 7
          Unauthorized Requests for Purchases ................................ 9
          Prompt Payment ............................................................ 10
     Payment Testing – University of Texas Medical Branch ............. 10
     Required Reports ................................................................. 10
          UTMB Reporting ............................................................. 10
          The Bureau of Prisons Reporting ...................................... 11
     Contractor Billing Process ..................................................... 11
     Monitoring of Contractor ....................................................... 11
     Recommendations ............................................................... 12
APPENDIX I – OBJECTIVE SCOPE AND METHODOLOGY .......... 13
APPENDIX II – SCHEDULE OF DOLLAR RELATED FINDINGS ... 15
APPENDIX III – BOP’S RESPONSE TO THE DRAFT REPORT ..... 16
APPENDIX IV – UTBM’S RESPONSE TO THE DRAFT REPORT ... 19
APPENDIX V – ANALYSIS AND SUMMARY OF ACTIONS
    NECESSARY TO CLOSE THE REPORT ............................... 20
                                    INTRODUCTION

      The Office of the Inspector General (OIG), Audit Division, has
completed an audit of the Federal Bureau of Prisons (BOP) Contract
No. DJB50211015, awarded to the University of Texas Medical Branch
(UTMB). The purpose of the contract is to operate and manage health
services units (HSU) at the Federal Correctional Complex in Beaumont,
Texas (FCC Beaumont). An indefinite-delivery requirements contract was
awarded to UTMB on July 18, 2007, and as shown below, had an estimated
award amount of over $98 million for the base year and four option years.
Actual costs for the base year and the first three option years were
$66,707,293. At the time of our audit, option year 4 had not been
exercised.

                                 EXHIBIT 1
                         CONTRACT PERIOD AND COSTS 1

   Contract
    Period              From            To         Estimated Cost  Actual Cost
Base Year              07/18/07      07/17/08       $ 17,746,483  $ 17,269,429
Option Year 1          07/18/08      07/17/09       $ 18,625,035  $ 17,271,795
Option Year 2          07/18/09      07/17/10       $ 19,785,555  $ 18,809,997
Option Year 3          07/18/10      07/17/11       $ 20,576,145  $ 13,356,072
Option Year 4          07/18/11      07/17/12       $ 21,408,345  $           0
Total                                               $ 98,141,563 $ 66,707,293
Source: The medical services contract and the list of contract-related expenditures

       The objectives of our audit were to determine if: (1) the solicitation
process for the contract was in accordance with the BOP’s policies and
procedures, (2) the contractor provided the supplies and services at the cost
and time agreed to in the contract, (3) payments were only made for
supplies and services that were allowable and authorized, (4) the BOP and
contractor submitted required reports, (5) the contractor’s billing process
was adequate and proper documents were provided to the BOP in support of
its requests for payment, and (6) the BOP effectively monitored the contract.
Additionally, a sample of source documents was reviewed at FCC Beaumont
to determine if billings were adequately supported.




       1
           Differences between the aggregated costs and totals are due to rounding.


                                            -1-
Background

The Bureau of Prisons and FCC Beaumont

      The BOP was established in 1930 to provide more progressive and
humane care for federal inmates, to professionalize the prison service, and
to ensure consistent and centralized administration of the 11 federal prisons
in operation at the time. Today, the BOP consists of 116 institutions,
6 regional offices, a Central Office (headquarters), 2 staff training centers,
and 22 community corrections offices.

      The BOP is responsible for the custody and care of approximately
210,000 federal offenders. Approximately 82 percent of these inmates are
confined in the BOP-operated facilities. The remainder are confined in
secure privately managed or community-based facilities and local jails.

        FCC Beaumont houses male inmates and consists of a high security
penitentiary, a medium security facility, a low security facility, and a satellite
minimum security prison camp. It is identified as a Care Level II BOP
facility, which is an intermediate classification on the four level scale where
Care Level I represents the healthiest inmates and care level IV represents
inmates with serious health issues. FCC Beaumont is located in Jefferson
County, Texas, approximately four miles south of the city of Beaumont. As
of July 14, 2011, the inmate population was 6,015, and was comprised of
1,531 inmates at the high security penitentiary, 1,859 at the medium
security facility, 2,055 at the low security facility, and 570 at the satellite
minimum security prison camp.

      On July 18, 2007, the BOP awarded UTMB an indefinite-delivery
requirements contract with firm fixed unit prices to provide all necessary
health services within each individual HSU as well as coordinate the
management of inmate inpatient care in the community as necessary. In
addition, the BOP pays the contractor a man-day rate, which is the price per
inmate, per day based on the actual inmate count at FCC Beaumont.
Providing comprehensive health services, including the management of
inmate inpatient care in the community and using a man-day rate is unique
in the BOP; the medical services contact awarded to FCC Beaumont is
currently the only one of its kind.

      The decision to contract out all of FCC Beaumont’s medical services
was based on a congressional requirement. Specifically, Senate Report No.
104-139 stated that the Bureau of Prisons was to develop a plan for a health
care privatization demonstration project based on a competitive
procurement covering a representative sample of the federal prison


                                      -2-
population, that is, at least one federal correctional complex. Officials at the
BOP explained that because FCC Beaumont came online around the same
time the senate report was issued, it was selected for the project. The
contractor, UTMB has been awarded the medical services contract three
consecutive times, covering the entire time period from 1996 to the present.

The University of Texas Medical Branch

      Established in 1891 as the University of Texas Medical Department,
UTMB has grown from one building, 23 students and 13 faculty members to
a modern health science center with more than 70 major buildings, more
than 2,500 students and more than 1,000 faculty members. The 84-acre
campus includes four schools, three institutes for advanced study, a major
medical library, a network of hospitals and clinics that provide a full range of
primary and specialized medical care, and numerous research facilities. The
UTMB is a component of the University of Texas System. The UTMB set up a
managed care system for the state of Texas approximately 17 years ago in
response to a legislative mandate for managed care for the States prison
system. UTMB manages 80 percent of the inmate population in the State of
Texas.

Our Audit Approach

      The overall objective of the audit was to determine if goods and
services have been administered according to contract and government
requirements. In addition to reviewing the solicitation procedures for
acquiring medical services, we tested compliance with what we consider to
be the most important terms and conditions of the contract. Specifically, we
determined if:

      1.    The solicitation process for the contract was in accordance with
            the BOP’s policies and procedures.

      2.    The cost and timeliness of services provided by the contractor
            were in accordance with the contract.

      3.    FCC Beaumont only paid for goods and services that were
            allowable and authorized.

      4.    FCC Beaumont and UTMB submitted required reports.

      5.    The UTMB’s billing process was adequate and it provided proper
            documentation to FCC Beaumont to support requests for
            payment.


                                     -3-
     6.    FCC Beaumont effectively monitored UTMB’s performance.

      The results of our audit were based on interviews with essential
personnel and documentation provided to us by both FCC Beaumont and the
UTMB. Our review included testing of accounting and billing records from
the effective date of the contract, July 18, 2007, through March 31, 2011.




                                   -4-
                  FINDINGS AND RECOMMENDATIONS

      We found that for those items tested, UTMB generally met the
      terms and conditions of the contract and followed applicable
      laws, regulations, and guidelines with the following exceptions.
      UTMB did not always submit proper invoices to FCC Beaumont,
      of the 24 payment vouchers sampled, 3 were missing invoices
      and 16 contained invoices with missing or incorrect information.
      In addition, UTMB had not paid all of its employees the proper
      Wage Determination Rates. Our audit also disclosed that FCC
      Beaumont did not verify all portions of UTMB invoices were
      calculated correctly resulting in an overpayment of $2,394.
      Also, six payment vouchers were not properly authorized. In
      addition, FCC Beaumont miscalculated the August 2008
      equitable adjustment payment resulting in an overpayment of
      $1,883. Finally, FCC Beaumont generally complied with the
      Prompt Payment Act. However, one of the 24 payment vouchers
      tested was late, resulting in $955 in penalty interest. These
      issues, as well as other areas covered in our audit, are discussed
      in detail in the following sections.

Contract Solicitation and Award of Contract

      On July 18, 2007, the BOP awarded a contract to UTMB to provide all
necessary health services within each individual HSU as well as coordinate
the management of inmate inpatient care in the community as necessary.
Specific provisions in the Statement of Work required that the contractor
provide urgent and routine care consistent with correctional standards, while
maintaining the level of quality dictated by the BOP and all applicable local,
state, and federal laws and regulations.

      The solicitation process used to acquire inmate medical services, and
the subsequent awarding of the contract to UTMB was in accordance with
the BOP’s policies and procedures. The request for bids was advertised on
FedBizOpps.gov as required, and the BOP officials properly received and
evaluated bids in accordance with the BOP’s rules and regulations.

Compliance with Contract Requirements

      We found that for the items we tested, UTMB generally met the terms
and conditions of the contract and followed applicable laws, regulations, and
guidelines with two exceptions. They did not comply with Federal
Acquisition Regulation (FAR) 22.1002-2 Wage Determinations Based on
Prevailing Rates, as described in the following paragraph, and FAR Subpart


                                    -5-
32.905, Payment Documentation and Process, which is discussed in the
Payment Testing – FCC Beaumont section of the report.

      According to FAR 22.1002-2, contractors performing on service
contracts in excess of $2,500 shall pay their employees at least the wages
found by the Department of Labor to prevail in the locality. UTMB Officials
provided us with a list of its employees and their current salary information.
From this information we calculated an hourly rate and compared that rate
to the applicable Department of Labor Wage Determination rates and as
detailed in Exhibit 3, determined not all 110 UTMB employees working at
FCC Beaumont were paid the applicable Wage Determination Rates. For
example, we determined that in the third option year, 4 of 110 UTMB
employees were paid less than the minimum wage rate.

                          EXHIBIT 2
     EMPLYOEE’S NOT PAID THE DEPARTMENT OF LABOR WAGE
                    DETERMINATION RATE

                                     Minimum wage
                                                              Employee
            Employee No.             rate in Option
                                                             Hourly rate
                                         Year 3
                   17                      $19.66               $19.64
                   43                      $27.64               $25.22
                   44                      $27.64               $24.04
                   45                      $27.64               $25.34
        Source: OIG’s analysis of Department of Labor Wage Determination rates

      We recommend FCC Beaumont ensures that UTMB comply with FAR
22.1002-2 and pay its employee’s in accordance with the Department of
Labor’s Wage Determination Rates.

Payment Testing – FCC Beaumont

       According to FCC Beaumont officials, there are several steps in the
verification of supplies and services, and in the authorization of invoice
payments. These steps are as follows; the verification process begins with
the task order packet. The Health Service Specialist, the equivalent of a
Health Services Administrator (HSA), will put together a Request for
Purchase (RP). This is done monthly and is signed off on and passed on to
the Supervisory Contracting Officer who reviews the RP, signs it and
generates a Purchase Order (SF-1449) from the Unified Financial
Management Information System (UFMIS). The Supervisory Contracting
Officer will sign the Purchase Order and pass both the RP and the Purchase
Order on to the Financial Management Personnel and they fill in the



                                       -6-
Purchase Order number and payment terms. The Purchase Order is also
used to obligate the money in the Financial Management Information System
(FMIS).

       When the Budget Analyst staff receives the monthly BOP report of
inmate man-days, the Financial Specialist at FCC Beaumont will provide the
report to UTMB. UTMB then generates an invoice and sends it to FCC
Beaumont. The Health Services Specialist approves the invoice and
Accounting verifies it. Once the invoice has been verified, the Cost Center
Manager approves the payment and the Accounting Technician verifies it is
not a duplicate payment and generates the voucher validation report in
FMIS. The task order documents, the request for purchase documents, the
Purchase order, and the FMIS obligation reports are included with the
voucher validation report and the invoice from UTMB, all of which goes to a
certifying officer for approval and the Accounting Technician initiates the
payment.

       From the inception of the contract on July 18, 2007, through March 31,
2011 (third option year), FCC Beaumont made 50 payments to UTMB,
totaling $66,707,293. 2 We judgmentally selected for testing, 24 of the 50
payment vouchers, totaling $26,664,319, or 40 percent of the total
expenditures incurred through March 31, 2011. The purpose of our testing
was to determine if: (1) services billed were properly approved, correctly
calculated, accurately recorded in the accounting records, and allowable
according to the contract; (2) receipt of services was confirmed; (3) invoices
were completed in compliance with the contract and federal guidelines and
invoiced amounts included supporting documentation; and (4) payments
were properly approved and in compliance with the Prompt Payment Act.
The testing results are discussed in the following sections.

Improper or Missing Invoices

       According to FAR Subpart 32.905 Payment Documentation and
Process, payments will be based on receipt of a proper invoice and
satisfactory contract performance. A proper invoice must include the
following items: (1) the name and address of the contractor; (2) the invoice
date and invoice number; (3) the contract number; (4) description, quantity,
unit of measure, unit price, and extended price of supplies delivered or
services performed; (5) shipping and payment terms; (6) name and address
of contractor official to whom payment is to be sent; and a (7) name, title,


       2
         The contract was for a base year and, if exercised, four additional option years. The
performance period for the base year through option year four would be July 18, 2007
through July 17, 2012.


                                            -7-
phone number and mailing address of the person to notify in the event of a
defective invoice.

      We obtained a list of all the payments from FCC Beaumont to the
University of Texas Medical Branch (UTMB) under the medical services
contract. Of the 24 payment vouchers sampled, 3 were missing invoices and
16 contained improper invoices with missing or incorrect contract numbers,
missing the contractor’s address, or missing the contractor point of contact
(POC). Missing invoices and missing invoice information could result in
erroneous and improper payments. Additionally, payments not supported
with invoices indicate FCC Beaumont personnel did not ensure that all the
proper voucher documentation was verified prior to payment. Exhibit 4 is a
summary of the improper invoice issues:

                              EXHIBIT 3
                     SUMMARY OF IMPROPER INVOICES

                           Missing       Incorrect      Missing       Missing
             Invoice       Contract      Contract      Contractor    Contractor
               No.           No.            No.         Address         POC
       1    FED08-01           X
       2    FED08-06           X
                     3         X
       3    FED08-11
       4    FED09-01           X                            X              X
       5    FED09-02                         X
       6    FED09-09                         X              X              X
       7    FED09-12                         X              X              X
       8    FED10-02                         X
       9    FED10-05                         X                             X
       10   FED10-06                         X                             X
       11   FED10-07                         X              X              X
       12   FED10-11A                                       X              X
       13   FED10-11B                                       X              X
       14   FED11-02                         X
       15   FED11-04                         X                             X
       16   FED11-06                         X                             X
                  Total        4             10             6             10
      Source: OIG analysis of FCC Beaumont’s payment records

      We recommend FCC Beaumont ensure that UTMB provides proper
invoices that comply with FAR Subpart 32.905 Payment Documentation and
Process.



      3
        This particular invoice was comprised of invoice numbers FED08-11A and
FED08-11B


                                         -8-
Unauthorized Requests for Purchases

      According to the BOP Program Statement P6010.02, Health Services
Administration, the HSA is responsible for verifying the accuracy of the
invoice, including determining if the billed services were authorized and
appropriate and have been completed. Additionally, according to the BOP’s
Program Statement P4100.04, Bureau of Prisons Acquisition Policy, requests
for purchases and/or other prescribed forms shall be signed or initialed by a
Cost Center Manager; and according to the contract, any services to be
furnished under the contract shall be ordered by issuance of a task order.

      During transaction testing, we identified six payment vouchers that
were not properly authorized. One voucher was missing a task order, and
five vouchers contained task orders that were either not signed by the Cost
Center Manager or not signed by both the Cost Center Manager and the
Contracting Officer.

       During a portion of the contract period, the UTMB prison hospital in
Galveston, Texas served the FCC Beaumont patient population for off-site
inpatient and outpatient services. UTMB's monthly invoices to FCC
Beaumont contained a "FBOP Daily Census" that listed the inmate's name,
admission and discharge dates, and the number of days billed. The cost of
inmate offsite days was calculated using the established man-day rate and
billed to FCC Beaumont in the monthly invoice. However, the voucher
package did not contain any supporting documentation or acknowledgement
that the number of off-site inmate days was verified.

      To ensure that FCC Beaumont was properly charged for off-site
services, we selected the 6 payment vouchers that contained these charges,
out of the 24 tested payment vouchers, and compared the inmates listed on
UTMB’s FBOP Daily Census report to the BOP Inmate History Reports. 4 We
determined that the off-site days were often miscalculated, missing
supporting documentation, and double charged. As a result, FCC Beaumont
overpaid $2,394.

      In addition, contract modification number three allowed for an
equitable adjustment to account for the inmate population falling below a
minimum threshold of 5,130 for 30 consecutive days. To calculate the
reimbursement owed to UTMB, FCC Beaumont took the original payment and
subtracted the additional contract amount based on the 5,130 floor.
However, for August 2008, FCC Beaumont did not include the cost of off-site

       4
         BOP Inmate History Reports contain inmates’ assigned location, organized by date
and time.


                                          -9-
man-days in its original calculation; therefore, its calculation was overstated
by $1,883.

       We recommend the BOP remedy the two over payments of $2,394 and
$1,883. We also recommend FCC Beaumont comply with the BOP’s Program
Statement P6010.02, Health Services Administration and BOP Program
Statement P4100.04 Bureau of Prisons Acquisition Policy and implement
policies and procedures to ensure that all invoices and payments are
properly authorized and verified.

Prompt Payment

       The BOP’s Program Statement P2011.10, Prompt Payment Act,
requires federal agencies to make payments on time and to pay interest
penalties when payments are late. Payment to UTMB was owed 30 days
after invoice receipt. We determined that FCC Beaumont generally complied
with the Prompt Payment Act. Of the 24 payment vouchers tested, only one
payment was late; the September 2007 payment was four days late
resulting in $955 in penalty interest.

      We recommend FCC Beaumont comply with the Prompt Payment Act
and remedy the $955 in penalty interest.

Payment Testing – University of Texas Medical Branch

      Given the low risk associated with the use of the man-day rate, when
performing transaction testing for UTMB we took the general ledger detail
they provided and compared it to FCC Beaumont’s list of payments to UTMB.
There was one UTMB transaction in the amount of $2,856, for speaker fees,
which did not appear to fall under the contract. UTMB officials informed us
that the BOP invited UTMB mental health personnel to speak at a conference
and that the fee was paid by the BOP Central Washington Office and not
under the contract. UTMB officials were able to provide support verifying
this.

Required Reports

UTMB Reporting

       According to the contract, on a non-routine basis, the contractor shall
submit various medical reports to the BOP. These reports may include, but
will not be limited to, pharmaceutical utilization reports and pharmaceutical
evaluation reports. In addition, the contractor will assign at least one
medical staff member to the dining hall at each institution for the lunch


                                    - 10 -
meal. The contractor will keep written records of the questions and requests
resulting from the mainline attendance and provide a copy of these written
records to the FCC Beaumont weekly. FCC Beaumont provided us copies of
these reports and written records. Therefore, we concluded that UTMB was
generally in compliance with the contract’s reporting requirements.

The Bureau of Prisons Reporting

      According to the BOP Program Statement P4100.04, the Contracting
Officer’s Technical Representative shall provide written evaluations of
contractor performance to the Contracting Officer, including interim reports
not less than annually, and contractor progress reports not less than
quarterly. Both the interim and quarterly reports were completed and
submitted, by FCC Beaumont as required

Contractor Billing Process

       We interviewed UTMB Officials to determine how their accounting
system accumulates, records, and summarize billing and cost information.
On a monthly basis, FCC Beaumont provides UTMB with the BOP monthly
man-day report and UTMB uses the man-day numbers on those reports to
generate an invoice which is sent to FCC Beaumont. Given the unique
nature of the contract, the outsourcing of 100 percent of the medical
services and the use of the man-day rate, the contractor billing process does
not require any of the traditional coding necessary in medical services
billings.

Monitoring of Contractor

      While on site at FCC Beaumont, we learned UTMB medical staff work
with FCC Beaumont staff on a daily basis and the FCC Beaumont staff and
UTMB staff meet monthly to discuss any issues that arise. In addition,
Patient Satisfaction Survey’s are distributed to inmate patients on a random
basis at each institution and monthly medical records audits are performed.
Both the survey and the audits help FCC Beaumont ensure UTMB is
providing all applicable services.




                                   - 11 -
Recommendations

     We recommend that the BOP:

1.   Ensure that UTMB complies with FAR 22.1002-2 and pay its
     employee’s in accordance with the Department of Labor’s Wage
     Determination Rates.

2.   Ensure UTMB provides complete invoices that comply with FAR
     Subpart 32.905 Payment Documentation and Process.

3.   Remedy the $2,394 in over payments FCC Beaumont made to UTMB
     related to charges for off-site days.

4.   Remedy the $1,883 overstated equitable adjustment inmate
     calculation payment.

5.   Comply with the BOP’s Program Statement P6010.02, Health Services
     Administration and BOP Program Statement P4100.04 Bureau of
     Prisons Acquisition Policy and implement policies and procedures to
     ensure that all invoices and payments are properly authorized and
     verified.

6.   Comply with the Prompt Payment Act and remedy the $955 in penalty
     interest.




                                 - 12 -
                                                                  APPENDIX I

                OBJECTIVES, SCOPE, AND METHODOLOGY

       The objectives of our audit were to determine if: (1) the solicitation
process for the contract was in accordance with the BOP policies and
procedures, (2) the contractor provided the supplies and services at the cost
and time agreed to in the contract, (3) payments were only made for
supplies and services that were allowable and authorized, (4) the BOP and
contractor submitted required reports, (5) the contractor’s billing process
was adequate and proper documents were provided to the BOP in support of
its requests for payment, and (6) the BOP effectively monitored the contract.
Additionally, a sample of source documents was reviewed at FCC Beaumont
to determine if billings were adequately supported.

      We conducted our audit in accordance with Government Auditing
Standards and included such tests as were considered necessary to
accomplish our objectives. Our audit concentrated on the inception of the
contract on July 18, 2007, through March 31, 2011.

      We performed sample testing for contract expenditures. In this effort, we
employed a judgmental sampling design to verify that expenses incurred under
the contract were accurate, complete and properly authorized. We selected a
sample of 24 expenditures for Contract No. DJB50211015. This non-statistical
sample design does not allow projection of the test results to the universe from
which the sample was selected.

      We also obtained an understanding of the contract requirements along
with the contractor’s controls and processes. We reviewed documents and
conducted interviews at the FCC Beaumont facilities and with UTMB staff, to
determine if the contractor provided services in accordance with the contract
and if billed costs were accurate. Specifically, we:

      •   Reviewed internal controls over payments at FCC Beaumont.
      •   Examined a judgmental sample of 24 out of the total 50 overall
          transactions to review invoices and related supporting documents at
          FCC Beaumont.
      •   Reviewed internal controls over the billing processes for UTMB to
          ensure that the invoices received by FCC Beaumont were accurate.

     In addition, we verified UTMB’s invoice and payment records against
FCC Beaumont to assess the accuracy of billings; however, we did not test



                                    - 13 -
the reliability of the financial management system as a whole. We
determined that the contractor’s records were sufficiently reliable to meet
the objectives of this audit.




                                    - 14 -
                                                                            APPENDIX II

                 SCHEDULE OF DOLLAR-RELATED FINDINGS5


      DOLLAR-RELATED FINDINGS:                       AMOUNT                 PAGE

        Over Payment of Invoices -                     $2,394                 10
       Miscalculation of Off-Site Days

           Over payment of Invoices –                  $1,883                 10
             Equitable Adjustment
                 Miscalculation

           Total Questioned Costs:                     $4,277

           Penalty Interest for a Late                 $ 955                  11
                    Payment

           TOTAL DOLLAR-RELATED                        $5,232
                 FINDINGS




       5
          Questioned Costs are monies spent that, at the time of the audit, do not comply
with legal requirements, or are unsupported, unbudgeted, or are unnecessary or
unreasonable. They can be recoverable or nonrecoverable.


                                           - 15 -
                                                              APPENDIX III

                BOP’S RESPONSE TO THE DRAFT REPORT

MEMORANDUM FOR DAVID M. SHEEREN
               REGIONAL AUDIT MANAGER
               DENVER REGIONAL AUDIT OFFICE


FROM:             Thomas R. Kane, Acting Director

SUBJECT:          Response to the Office of Inspector General’s (OIG) DRAFT
                  Report: Audit of the Federal Bureau of Prisons Medical
                  Services Contract with the University of Texas Medical
                  Branch Contract No. DJB50211015

The Bureau of Prisons (BOP) appreciates the opportunity to respond to the
open recommendations from the draft report entitled Audit of the Federal
Bureau of Prisons Medical Services Contract with the University of Texas
Medical Branch (UTMB) Contract No. DJB50211015.

Please find the Bureau’s response to the recommendations below:

Recommendation 1: “Ensure that UTMB complies with FAR 22.1002-2 and
pay its employees in accordance with the Department of Labor’s Wage
Determination Rates.”

Response: In accordance with FAR 22.1004 the Department of Labor has
total responsibility to enforce the Service Contract Act. When Option Year
No. 03, was exercised, Wage Determination No. 2005-2505, Revision No. 13
(dated 06/13/11), was incorporated into Modification No. 006. In
accordance with FAR 22.1018, notification to contractor and employees,
UTMB was notified of the minimum wages and fringe benefits per the wage
determination. It is the responsibility of the contractor to ensure all
employees are paid the minimum amount of the wage classification. When
an employee is paid less than the minimum wage rate, it is the Department
of Labor’s responsibility to ensure the wage rate is enforced and the
contractor complies. The only time when the Administrative Contracting
Officer (ACO) would be involved with this type of issue would be when the
effected employee notifies the ACO that he or she is not being paid the
correct prevailing wage rate under the Service Contract Act. The ACO would
notify the contractor of the issue. If the contractor refused to pay the rate,
then this matter would be turned over to the Department of Labor for


                                    - 16 -
investigation. The employees noted in the most recent OIG Audit never
notified the ACO that they were not being paid the correct wage rate. Now
since the ACO has been made aware of this matter, the ACO has contacted
UTMB and advised them to look into the issue and provide a response of why
the employees were not paid the correct rate. Therefore, we request this
recommendation be closed.

Recommendation 2: “Ensure UTMB provides complete invoices that
comply with FAR Subpart 32.905 Payment Documentation and Process.”

Response: UTMB will be notified of all the information required to be
included on a proper invoice, to comply with FAR Subpart 32.905. Financial
Management staff will closely review all invoices received from UTMB. Any
invoices without all necessary information will be rejected, and returned to
UTMB for corrective action before payments are certified. We request this
recommendation be closed.

Recommendation 3: “Remedy the $2,394 in over payments FCC
Beaumont made to UTMB related to charges for off-site days.” 6

Response: An account receivable will be established and UTMB will be
billed $2,394 for the overpayments related to charges for off-site days. FCC
Beaumont no longer incurs any charges for off-site days. The loss of secure
bed space at the UTMB prison hospital in Galveston, was due to damages
caused by Hurricane Ike in September 2008. All inmates requiring outside
medical care are treated at local hospitals and clinics, and they remain under
the supervision of FCC Beaumont.

Recommendation 4: “Remedy the $1,883 overstated equitable
adjustment inmate calculation payment.”

Response: An account receivable will be established and UTMB will be
billed $1,883 for the overpayment related to the equitable adjustment
inmate calculation payment. The payment resulted from the inmate
population falling below the minimum threshold of 5,130 inmates for 30
consecutive days. Since FCC Beaumont’s population has been averaging
approximately 5,800 inmates over the past 6 months and has continued to
increase, equitable adjustment payments should not be applicable in the
immediate future.



       6
          The OIG’s draft report questioned $2,458 for overpayments related to charges for
off-site days. However, based additional information provided by officials from the University
of Texas Medical Branch, the questioned amount was adjusted to $2,394.


                                           - 17 -
Recommendation 5: “Comply with the BOP’s Program Statement
P6010.02, Health Services Administration and BOP Program Statement
P4100.04 Bureau of Prisons Acquisition Policy and implement policies and
procedures to ensure that all invoices and payments are properly authorized
and verified.”

Response: The Health Services Specialist will verify the accuracy of each
UTMB invoice, including determining if the billed services were authorized
and appropriate and have been completed. Financial Management staff will
ensure each payment voucher includes a task order signed by the Cost
Center Manager and the Contracting Officer, as well as a proper invoice, in
compliance with FAR Subpart 32.905. We request this recommendation be
closed.

Recommendation 6: “Comply with the Prompt Payment Act and remedy
the $955 in penalty interest.”

Response: FCC Beaumont will reimburse UTMB for the penalty interest in
the amount of $955 for the one late payment made in December 2007. The
interest amount was not automatically calculated by Financial Management
Information System (FMIS) and added to the original payment amount in
FMIS. Therefore, UTMB did not receive the penalty amount for the late
payment. A copy of the late payment voucher was forwarded to the FMIS
Support Section in the Central Office for further investigation. The FMIS
Support Section has determined (based on the payment voucher) the invoice
was not received by FCC Beaumont until October 31, 2007. Since the
payment period was 30 days, the actual pay date was November 30, 2007,
one of the last two days of the month. Since Treasury does not process
payments on the last two days of the month, the payment date for this
invoice was pushed back to December 3, 2007. This payment was not
considered late in FMIS, based on the date posted in the system that FCC
Beaumont received the invoice (i.e. October 31, 2007). Consequently, no
interest was calculated by FMIS and paid. Since this payment should have
been disbursed on November 30, 2007, it probably should have calculated
interest. We are aware of this issue and the FMIS Support Section was
notified of the discrepancy. Based on the results of this inquiry, a plan of
action will be implemented to prevent reoccurrence of this issue. We
request this recommendation be closed.

If you have any questions regarding this response, please contact H. J.
Marberry, Assistant Director, Program Review Division, at
(202) 353-2302.




                                   - 18 -
                                                                                         I APPENDIX IV




•       Health                                                                         Exe<:uliv. Vice P r eside"t,
                                                                                       Chief Bu. 'n... a nd Finance Ollie.,
                                                                                       30 1 Univefsl,y Btvd.
                                                                                       Galveston, Texas 77555-0128
                                                                                       0 409.266.2005 F 401l.2Mi.2005



    November 29,2011




    David M. Sheeren
    Regional Audit Manager
    Denver Regional Audit Office-OIG
    1120 Lincoln, Suite 1500
    Denver, CO 80203

    Dear Mr. Sheeren:

    UTMB appreciates your including us in the recent audit conducted at the FBOP Beaumont
    Complex. After having reviewed the draft audit report and additional analysis between our
    Correctional Managed Care staff and FBQP Beaumont personnel, we agree with your findings.
    Specifically:

        1.   Invoices submitted to FBOP have been modified to include all required information .

        2.   There was some duplication of paid man-days while offenders were admitted or
             discharged from Hospital Galveston and counted for also in the FBOP figures on those
             days, Amounts due FBOP will either be credited on a future invoice, or remitted under a
             separate payment to FBOP - we will coordinate the preferred action with FBOP
             Beaumont personnel.

        3.   Employee wages have been reviewed. Impacted employee salaries are being corrected
             going forward as well as all back wages in the process of being paid.

    Regards,




    w:~&
    Executive Vice President,
    Chief Business and Finance Officer




                                                 - 19 ­
                                                              APPENDIX V

              OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT


      The Office of the Inspector General (OIG) provided a draft of this audit
report to the Bureau of Prisons (BOP) and to the University of Texas Medical
Branch (UTMB). Their responses are incorporated in Appendices III and IV,
respectively of this final report. The following provides the OIG analysis of
the responses and a summary of actions necessary to close the report.

Recommendation Number:

   1. Resolved. The BOP concurred with our recommendation to ensure
      that UTMB complies with FAR 22.1002-2 and pay its employees in
      accordance with the Department of Labor’s Wage Determination Rates.
      The BOP stated in its response that since the Administrative
      Contracting Officer (ACO) has now been made aware of the fact that
      not all employee’s have been paid in accordance with the Department
      of labor’s Wage Determination Rates, the ACO has contacted UTMB
      and advised them to look into the issue and provide a response of why
      the employees were not paid the correct rate.

      This recommendation can be closed when we receive sufficient
      documentation ensuring UTMB will comply with FAR 22.1002-2 and
      pay its employees in accordance with the Department of Labor’s Wage
      Determination Rates, including the BOP’s communication with UTMB
      and UTMB’s response as to why employees were not paid the correct
      rate.

   2. Resolved. The BOP concurred with our recommendation to ensure
      UTMB provides complete invoices that comply with FAR Subpart 32.95
      Payment Documentation and Process. The BOP stated in its response
      that UTMB will be notified of all the information require to be included
      on a proper invoice and the Financial Management staff will closely
      review all invoices received from UTMB.

      This recommendation can be closed when we receive documentation
      supporting the BOP’s communication with UTMB regarding the required
      information on a proper invoice, as well as documentation supporting
      the communication with Financial Management Staff on the review



                                    - 20 -
       process of all invoices received from UTMB.

   3. Resolved. The BOP concurred with our recommendation to remedy
      the $2,394 in overpayments to FCC Beaumont made to UTMB related
      to chares for off-site days. The BOP stated in its response that an
      account receivable will be established and UTMB will be billed $2,394
      for the overpayments related to charges for off-site days. The BOP
      also stated FCC Beaumont no longer incurs any charges for off-site
      days. 7

       This recommendation can be closed when we receive documentation
       supporting the $2,394 receivable and payment by UTMB.

   4. Resolved. The BOP concurred with our recommendation to remedy
      the $1,883 overstated equitable adjustment inmate calculation
      payment. The BOP stated in its response that an account receivable
      will be established and UTMB will be billed $1,883 for the overpayment
      related to the equitable adjustment inmate calculation payment. The
      BOP also stated that since FCC Beaumont’s population has been
      averaging approximately 5,800 inmates over the past 6 months and
      has continued to increase, equitable adjustment payments should not
      be applicable in the immediate future.

       This recommendation can be closed when we receive documentation
       supporting the $1,883 receivable and payment by UTMB.

   5. Resolved. The BOP concurred with our recommendation to comply
      with the BOP’s Program Statement P6010.02, Health Services
      Administration and BOP Program Statement P4100.04 Bureau of
      Prisons Acquisition Policy and implement policies and procedures to
      ensure that all invoices and payments are properly authorized and
      verified. The BOP stated in its response that the Health Services
      Specialist will verify the accuracy of each UTMB invoice, including
      determining if the billed services were authorized and appropriate and
      have been completed. Financial Management staff will ensure each
      payment voucher includes a task order signed by the Cost Center
      Manager and the Contracting Officer, as well as a proper invoice.

       This recommendation can be closed when we receive documentation
       supporting the policies and procedures implemented in the BOP’s


       7
          The OIG’s draft report questioned $2,458 for overpayments related to charges for
off-site days. However, based on subsequent discussions with officials from the University of
Texas Medical Branch, the questioned amount was adjusted to $2,394.


                                           - 21 -
  response.

6. Resolved. The BOP concurred with our recommendation to comply
   with the Prompt Payment Act and remedy the $955 in penalty interest.
   The BOP stated in its response that FCC Beaumont will reimburse
   UTMB for the penalty interest in the amount of $955 for the late
   payment made in December 2007. The BOP’s response also indicated
   that it was working with the Financial Management Information
   System support section to determine why the interest amount was not
   automatically calculated.

  This recommendation can be closed when we receive documentation
  supporting FCC Beaumont’s reimbursement to UTMB for the $955
  penalty interest.




                               - 22 -
